No. 21A8

In The

Supreme Court of the United States
PANTELIS CHRYSAFIS, et al.,
v.

Applicants,

LAWRENCE K. MARKS,
Respondent.
CERTIFICATE OF SERVICE
Oren L. Zeve, a member of the bar of this Court, hereby certifies that all parties
required to be served, as listed below, have been served with a portable document
format copy of the accompanying Brief in Opposition by electronic mail on August 4,
2021, and that all parties have waived service of paper copies:
Counsel for Applicants
Randy M. Mastro
Gibson, Dunn & Crutcher LLP
200 Park Avenue
New York, NY 10166
rmastro@gibsondunn.com
(212) 351-4000
Executed August 4, 2021
. /s/ Oren L. Zeve
.
Oren L. Zeve
Managing Assistant Solicitor General
New York State Office of the Attorney General
28 Liberty Street
New York, NY 10005

